No._____________

In The
Supreme Court of the United States
TONY CHEVALLIER,

Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE
I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That on the 16th day of December,
2020, I filed a copy of the Petition of Writ of Certiorari and Motion for Leave to
Proceed In Forma Pauperis with the United States Supreme Court via UPS Ground
Transportation. I further certify that I served a copy of said Petition via UPS
Ground Transportation addressed to the following:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530-0001
Jennifer P. May-Parker
OFFICE OF THE UNITED STATES ATTORNEY
150 Fayetteville Street, Suite 800
Raleigh, NC 27601
919-856-4530
usance.ecfappeals@usdoj.gov
Counsel for Respondent
Karen R. Taylor
Gibson Moore Appellate Services, LLC
206 East Cary Street
Richmond, VA 23219

